<html>
<title> - NOMINATIONS OF MICHAEL J. MISSAL AND HON. CAROLYN N. LERNER</title>
<body><pre>[Senate Hearing 114-586]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-586

                  NOMINATIONS OF MICHAEL J. MISSAL AND
                         HON. CAROLYN N. LERNER

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             SECOND SESSION

                               ----------                              

       NOMINATIONS OF MICHAEL J. MISSAL TO BE INSPECTOR GENERAL,
                U.S. DEPARTMENT OF VETERANS AFFAIRS, AND
 HON. CAROLYN N. LERNER TO BE SPECIAL COUNSEL, U.S. OFFICE OF SPECIAL 
                                COUNSEL

                               ----------                              

                            January 12, 2016

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]























                                                        S. Hrg. 114-586

                  NOMINATIONS OF MICHAEL J. MISSAL AND
                         HON. CAROLYN N. LERNER

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             SECOND SESSION

                               __________

       NOMINATIONS OF MICHAEL J. MISSAL TO BE INSPECTOR GENERAL,
                U.S. DEPARTMENT OF VETERANS AFFAIRS, AND
 HON. CAROLYN N. LERNER TO BE SPECIAL COUNSEL, U.S. OFFICE OF SPECIAL 
                                COUNSEL

                               __________

                            JANUARY 12, 2016

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
  
                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-988 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
      
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
                  Christopher R. Hixon, Chief Counsel
Gabrielle D'Adamo Singer, Deputy Chief Counsel for Governmental Affairs
              David N. Brewer, Chief Investigative Counsel
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
             Katherine C. Sybenga, Minority Senior Counsel
                     Laura W. Kilbride, Chief Clerk
                   Benjamin C. Grazda, Hearing Clerk
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     3
    Senator Carper...............................................     7
    Senator Portman..............................................    16
    Senator Baldwin..............................................    17
    Senator Ayotte...............................................    19
    Senator Ernst................................................    21
    Senator Lankford.............................................    23
    Senator Heitkamp.............................................    26
Prepared statement:
    Senator Johnson..............................................    31
    Senator Carper...............................................    33

                               WITNESSES
                       Tuesday, January 12, 2016

Hon. Jon Tester, a United States Senator from the State of 
  Montana........................................................     1
Hon. Benjamin L. Cardin, a United States Senator from the State 
  of Maryland....................................................     3
Michael J. Missal to be Inspector General, U.S. Department of 
  Veterans Affairs
    Testimony....................................................     9
    Prepared statement...........................................    35
    Biographical and financial information.......................    37
    Letter from the Office of Government Ethics..................    56
    Responses to pre-hearing questions...........................    61
    Responses to post-hearing questions..........................    78
Hon. Carolyn N. Lerner to be Special Counsel, U.S. Office of 
  Special Counsel
    Testimony....................................................    10
    Prepared statement...........................................    80
    Biographical and financial information.......................    84
    Letter from the Office of Government Ethics..................   282
    Responses to pre-hearing questions...........................   285
    Responses to post-hearing questions..........................   300
    Letters of support...........................................   307

                                APPENDIX

Letters to Ms. Halliday..........................................   316
White Paper......................................................   333
GAO Report.......................................................   346
 
      NOMINATIONS OF MICHAEL J. MISSAL AND HON. CAROLYN N. LERNER

                       TUESDAY, JANUARY 12, 2016

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Ayotte, 
Ernst, Sasse, Carper, McCaskill, Tester, Baldwin, Heitkamp, and 
Peters.

    Chairman Johnson. This hearing will come to order. I want 
to welcome everybody. Good morning.
    Today the Committee is considering two nominations: Mr. 
Michael Missal to be the Inspector General (IG) for the 
Department of Veterans Affairs (VA), and Ms. Carolyn Lerner, 
renominated for a second term as United States Special Counsel 
of the Office of Special Counsel (OSC). I understand that 
Senator Tester has a tight schedule this morning, so I thought 
we would get going right away because I know Senator Tester 
would like to introduce Mr. Missal.

OPENING STATEMENT OF THE HONORABLE JON TESTER, A UNITED STATES 
               SENATOR FROM THE STATE OF MONTANA

    Senator Tester. Yes, thank you, Mr. Chairman. Interestingly 
enough, I have a meeting with the Secretary of the VA at 10 
o'clock, so I appreciate your allowing me to go first.
    I want to thank you, Mr. Chairman, and Ranking Member 
Carper for holding this hearing today. Today we are going to 
consider the names of two individuals who can bring forth 
stronger oversight and accountability to the Federal Government 
while also ensuring that we are better supporting and 
empowering Federal whistleblowers.
    I want to take this opportunity to introduce Michael J. 
Missal, who has been nominated to serve as the Inspector 
General of the Department of Veterans Affairs. This nomination 
should not be in doubt. Mike has extensive investigative and 
management experience. He has gained this through a number of 
high-profile investigations, audits, and inspections over the 
years. And, Michael, I want to thank you for being here, and 
thank you for your willingness to serve. And I also want to 
thank the members of your family for being here today.
    At no fault of your own, this nomination has been a very 
long time in coming, and I certainly share the frustration of 
the Chairman, Ranking Member, and Members of this Committee who 
have been waiting impatiently for 2 long years. Particularly 
given the turbulence of the last couple of years, it is 
unacceptable that the VA has been without a permanent Inspector 
General to provide the kind of leadership and independent 
oversight necessary to hold the VA accountable and to guide the 
Office of Inspector General (OIG) through its increasing 
workload. Now at long last the ball is in this Committee's 
court.
    I personally met with Mike late last year to discuss his 
credentials and his experience and to ensure that he was fully 
aware of the task, a very difficult task, that is at hand. I 
believe that he is superbly qualified for this nomination. His 
skill set, his experience, and his temperament are right for 
the job, and he is certainly ready to go to work.
    During our discussion it was clear that Mike and I shared 
the belief that the public's confidence and trust in the VA 
have been greatly undermined, and it will take a long time, I 
might add, before that trust and confidence will be restored. 
If confirmed, Mike will play a critical role in this process.
    It is clear that the VA needs to operate in a more 
transparent manner, and it needs to be held accountable when it 
is not doing right by the veterans of this country. The omnibus 
appropriation bill that we passed late last year makes historic 
investments in the VA health care. I fought for every dollar 
that is in that bill. But while I am pleased with these 
significant new investments in our veterans, we have the 
responsibility to make sure that the money is properly spent. 
If confirmed, we will expect Mike to do the same. We cannot 
afford to make these investments without knowing they are 
producing real results for the veterans who have earned it. We 
also cannot afford to allow systematic failures to continue, 
failures that deny or delay care for veterans or in any way 
compromise their well-being.
    For instance, it was just reported in Montana that the 
private information of hundreds of veterans may have been 
compromised by the VA. We need increased accountability, and we 
need it today.
    Later today, the Senate Veterans' Affairs Committee, of 
which I am also a member, will vote to move Mr. Missal's 
nomination forward. I am confident that his support will be 
overwhelming and probably unanimous. But now is the time for 
this Committee to act. I am hoping we can move forward on this 
nomination in the coming days to ensure that the VA's Office of 
Inspector General can finally have the permanent leadership and 
oversight that we have been demanding for the past 2 years. It 
is a critical step if we are to rebuild the trust of the public 
and particularly of our veterans in the agency that was created 
to ensure that we properly honor and care for those who have 
sacrificed so greatly for this country.
    Mike, I just once again want to thank you for your 
willingness to serve. It is truly appreciated. Chairman 
Johnson, Ranking Member Carper, thank you again for holding 
this hearing today. This is an important step forward for the 
VA. It is an important step forward for our veterans. Like I 
said earlier, I hope we can move on Mike Missal's nomination as 
IG as soon as possible.
    Thank you.
    Chairman Johnson. Thank you, Senator Tester. Again, I think 
we all share your frustration that we have not had a nomination 
for a permanent Inspector General at the VA, and we are very 
pleased that Mr. Missal is willing to serve.
    I know when I met with you in my office, I was very 
grateful that you are willing to serve. This is a troubled 
Inspector General's office. It just is. And we will talk about 
that later.
    I know you both have family members. We are waiting for 
Senator Cardin to introduce Ms. Lerner. Maybe you would like to 
just quickly introduce your family members, whom we also 
welcome. Mr. Missal.
    Mr. Missal. Sure. I have my wife, Deborah, here and son, 
Jordan, who is a senior at Washington and Lee University.
    Chairman Johnson. Welcome.
    Senator Carper. Is Jordan the one wearing the green tie?
    Mr. Missal. Green tie.
    Senator Carper. Thank you.
    Ms. Lerner. My husband, Dwight Bostwick, is here with me. 
Our two children, Ben and Anna, would be here if they could be, 
but they are back at college. But they sat through the first 
hearing, so I cannot really hold it against them.

              OPENING STATEMENT OF SENATOR JOHNSON

    Chairman Johnson. We certainly welcome you and your family 
members, and we truly appreciate the fact you are willing to 
serve your Nation in these capacities. These are not easy jobs.
    I do have an opening statement which I would ask consent to 
have entered in the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Chairman Johnson appears in the 
Appendix on page 31.
---------------------------------------------------------------------------
    But let me just talk about why this is in many respects so 
personal to me. Ms. Lerner, when I had you in my office 
yesterday, I told you that I came here because we have some 
enormous problems. And I have to admit, when I first 
contemplated running for the U.S. Senate, I was not thinking 
about really delving into the Office of Inspector General and 
taking a look at all the details there. Well, actually we have 
Senator Cardin here. Senator Cardin, are you ready to introduce 
Ms. Lerner right off the bat?
    Senator Cardin. I apologize.
    Chairman Johnson. No. That is fine. To be respectful of 
your time, if you are ready to go, why don't you make your 
introduction of Ms. Lerner? Then I will continue with my 
opening statement.

OPENING STATEMENT OF THE HONORABLE BENJAMIN L. CARDIN, A UNITED 
           STATES SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Thank you, Mr. Chairman. I appreciate the 
courtesy of allowing me to introduce Ms. Lerner, and, Ranking 
Member Carper and Members of the Committee, it really is a 
pleasure to be here today to introduce to the Committee Carolyn 
Lerner, who happens to be a Marylander, who has been nominated 
to another term as Special Counsel of the United States Office 
of Special Counsel, and I am pleased to support her nomination.
    Ms. Lerner received her undergraduate degree from the 
University of Michigan and her law degree from New York 
University (NYU) School of Law, and after clerking, she made 
the extremely wise decision to move to the State of Maryland. 
She has been a Maryland resident for 25 years and now lives in 
Montgomery County, Maryland.
    OSC, I think you all know, is an extremely important 
agency. The work that is done by OSC is critically important to 
our Federal workforce and to our laws. They are basically 
responsible for the implementation of the Civil Service Reform 
Act, the Whistleblower Protection Act (WPA), the Hatch Act, and 
the Uniformed Services Employment and Reemployment Rights Act 
(USERRA). They safeguard the merit system.
    Mr. Chairman, I am very proud of our Federal workforce. I 
think we have the best Federal workforce in the world, 
dedicated public servants. But it depends upon individuals who 
are willing to step forward to make sure that system continues.
    It is not easy to be a whistleblower. It takes courage. And 
this position that Ms. Lerner has been renominated for 
guarantees that these laws work properly. And I must tell you 
it does take some courage for people to participate in the 
system. Ms. Lerner has brought needed stability, continuity, 
and professionalism to the office. Ms. Lerner has reduced OSC's 
costs to resolve a case by 45 percent, leading to record levels 
of productivity. In 2015, OSC resolved over 6,000 cases, which 
is an over-50-percent increase from the year that Ms. Lerner 
took office. She overhauled the alternative dispute resolution 
program, as mediation can often save time and money in 
producing better outcomes, and has earned praise from the 
Government Accountability Project (GAP) for setting new global 
gold standards for alternate dispute resolution (ADR).
    When it comes to results, the number of favorable actions 
on behalf of whistleblowers and the merit system, she has 
consistently set records. In 2015, her office secured 268 
favorable actions from whistleblowers and other employees, up 
from 201 favorable actions in 2014. The results speak for 
themselves. She has saved us money, and she has resolved cases, 
and has resolved them in a favorable manner.
    I am very proud to support her nomination. Let me just cite 
a couple examples because this is what this is about. It is 
about the credibility of our system.
    One involved the Air Force Port Mortuary in Dover, 
Delaware. They discovered misconduct regarding the improper 
handling of human remains of fallen servicemembers, which 
ultimately led to corrective action by the Air Force. That is 
the type of matters that we are talking about which her 
professionalism has helped to resolve.
    Her work with whistleblowers at the Department of Homeland 
Security (DHS) revealed improper management of annual overtime 
payments, resulting in millions in cost savings to taxpayers, 
saving taxpayer dollars.
    And OSC's work with Veterans Affairs whistleblowers has 
helped to improve the quality of health care of our veterans.
    She has received numerous endorsements, and many of them I 
will just put into the record, but let me just end with 
Congressman Jeff Miller. The Chairman of the House Committee on 
Veterans' Affairs wrote to the Committee to express his 
``enthusiastic support for the confirmation of Ms. Carolyn 
Lerner for reappointment to lead the Office of Special Counsel. 
Ms. Lerner has been an outstanding Special Counsel who 
marshaled her office resources admirably to respond to the 
unexpected wave of VA complaints. She has worked tirelessly to 
promote accountability and restore confidence in the VA. 
Therefore, I offer my wholehearted support for her confirmation 
for another term as Special Counsel.''
    I agree with Congressman Miller, and I urge the Committee 
to consider her nomination and to report it favorably to the 
floor in a timely manner so that she can continue the great 
work she is doing on behalf of the American people.
    Chairman Johnson. Thank you, Senator Cardin.
    It is interesting that in the introductions by both Senator 
Tester and Senator Cardin--I made a couple notes. Senator 
Tester talked about the importance of the Inspector General 
and, quite honestly, of the Special Counsel to be transparent 
and accountable, which is really what we need all of government 
to be--transparent and accountable. And I completely agree with 
you, Senator Cardin, coming from the private sector, where I 
have seen excellence because of our free market competitive 
system, very impressed with the quality of the Federal 
workforce. I realize, people with the skill level that are 
engaged in these agencies could make more in the private 
sector, but they do, as patriots, as committed Americans, serve 
our government, have less pay, and they do a really good job.
    And you are also right that it is very difficult to step 
forward, and it is difficult to step forward because this is 
the shock that I have experienced, coming from the private 
sector, is the level and pervasiveness of retaliation against 
those individuals, those whistleblowers, which is why this 
hearing and these nominations and these positions that we will 
be voting on your confirmation for are so incredibly important.
    I asked for my opening statement to be entered into the 
record, and, by the way, those letters of recommendation\1\ 
will be also.
---------------------------------------------------------------------------
    \1\ The letters of recommendation appear in the Appendix on page 
307.
---------------------------------------------------------------------------
    I just want to take a couple minutes to talk about the 
story of why this is so important. Again, I said I did not come 
here to delve into Inspectors General. I mean, I did not know 
much about it until I landed on this Committee. It really began 
with the events in Cartagena and a hearing we had with the 
Director of the Secret Service really denying the reality of 
the problems occurring within that agency. And as we continued 
to delve, my staff continued to delve into the problems 
involved in the report from the Office of Inspector General on 
the events in Cartagena, we realized that the report had been 
doctored. There was not integrity, there was not independence, 
there was not accountability from the Office of Inspector 
General.
    Now, that was the Office of Inspector General within the 
Department of Homeland Security, and that was an Acting 
Inspector General that I think was corrupted by that 
individual's desire to be appointed the permanent Inspector 
General. It is a really bad idea. So that was my first foray 
into understanding how an Office of Inspector General, whose 
sole purpose is to be the watchdog of these agencies, to be 
independent and transparent and accountable, how that office 
can be corrupted.
    Fast forward to January 8, 2015. Aaron Glantz of the Center 
for Investigative Reporting breaks a story about Candy Land and 
Candy Man at the Tomah VA. The story publicized the existence 
of a then-secret--I want that word to seep in--a ``secret'' 
report from the VA Office of Inspector General that examined 
and whitewashed Dr. Houlihan's questionable prescription 
practices. That was on January 8, 2015, the first time I heard 
that there were problems at the Tomah VA.
    On January 12, Candace Delis of Wisconsin took her father, 
Thomas Baer, a veteran of this country, to the Tomah VA Urgent 
Care Center with stroke symptoms. Mr. Baer sat in the waiting 
room--this is somewhat disputed--2 to 3 hours, probably 
suffered a couple strokes, died a couple days later. They 
finally transported him to Gunderson Lutheran to try to get 
adequate care, but he could not be saved.
    Here is the point I want to make. A few days later, when I 
was talking to Candace Delis, she told me, ``Senator, had I 
only known''--``had I only known the problems at the Tomah VA 
Health Care Center, I never would have taken my father to that 
center.'' She came from Marshfield, Wisconsin, a Medical Center 
of Excellence. I have to believe her father, Thomas Baer, would 
be alive today had she only known.
    Now, upon hearing this, a new Chairman of this Committee, I 
assigned my staff the job of investigating the Tomah health 
care facility. In 3 months, I think we uncovered more problems 
in that facility than the VA Office of Inspector General 
uncovered in a 3-year investigation. They first had an 
allegation, a complaint, in March 2011, a 3-year investigation, 
finally issued a report in March 2014, which they did not make 
public. By the way, that was one of 140 other reports on 
investigations and inspections that they did not make public.
    I have asked other Inspectors General about how many 
reports they have kept private, away from the public, and they 
look at me like I am from another universe. It is just 
basically unheard of unless there are issues of national 
security.
    So there is a real problem, Mr. Missal, in the Office of 
Inspector General within the VA system, and that is why I said, 
God bless you for taking on this task. You have a very large 
task at hand.
    We will talk a little bit later about this White Paper. 
Again, it took 3 years for the Office of Inspector General to 
investigate and then issue a non-public report on the problems 
within Tomah. It only took them a couple months to write and 
make public a report that retaliated--the Office of Inspector 
General wrote a report that retaliated against the 
whistleblowers of the problems at the Tomah VA system. That is 
why these positions are so incredibly important. That is why we 
need people of integrity that will be independent, that will be 
transparent, so that the agencies within this Federal 
Government are held accountable.
    So, again, I am looking forward to the hearing. I think 
that certainly underscores why this is so important, this 
hearing, and I look forward to it. With that, I will turn it 
over to my Ranking Member, Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman. Thanks for calling 
this hearing today and bringing us together. It is good to see 
all my colleagues again. And it is very nice to see both of you 
and to have a chance to see your spouses and at least a child 
or two. I want to thank your spouses for their willingness to 
share you, each of you, with the people of our country and to 
allow you to do this service. We know from our own experience 
that these are tough and demanding jobs, and so we are 
especially grateful for the family members, the sacrifices that 
you make to allow them to serve.
    I want to begin by welcoming back Carolyn Lerner. It is 
nice to see you. But she is no stranger to this Committee, and 
Carolyn is not a stranger either to the position to which she 
has been nominated. And as we heard, the Office of Special 
Counsel has a number of very important functions. Around here, 
it is probably best known as the primary office for enforcing 
whistleblower protections.
    We all know that whistleblowers play an important role, I 
think an increasingly important role, in rooting out waste, 
fraud, and abuse in government. They are often the first to 
raise concerns and highlight instances where we can better 
serve the American people. The Special Counsel's Office also 
plays an important role in ensuring that whistleblowers are 
heard and that they are protected after they speak up.
    I have seen firsthand--and it has been alluded to--the good 
work that the Office of Special Counsel has done at the Dover 
Air Force Base, especially with the Port Mortuary there where 
the remains of our fallen heroes are brought from all over the 
world. Several years ago, we learned that, thanks to some 
whistleblowers there, that some of the behaviors, some of the 
actions taken within that mortuary were inappropriate--maybe 
not illegal but inappropriate and just wrong-headed and wrong. 
And the folks who raised these concerns were retaliated 
against. They were retaliated against to the extent of losing 
their jobs.
    I remember one of them, whose name was ``Mr. Z,'' showing 
up at our doorstep in our Dover office, my Dover Senate office, 
and laying out what was going on. And we ended up talking with 
him and other whistleblowers. The Office of Special Counsel got 
involved, and lo and behold, a year later, when I visited the 
Port Mortuary--I try to go by there every year or two, and I 
visited to see how things were going, and the people who 
greeted me at the entrance there were the whistleblowers. And 
the people who did not greet me during that tour were the 
colonel who had run the place. He was gone. And the other 
person who did not welcome me for that tour was a senior 
civilian employee there who was gone. And I just want to thank 
you, not just on behalf of those people who had the courage to 
raise their heads and raise their hands and say something is 
wrong here, but on behalf of all the people and all the 
families who will rest easier because of the work that you have 
done.
    It is also my understanding--and Senator Cardin has alluded 
to this--that under your leadership, Carolyn, these positive 
outcomes that I have just referred to have become more frequent 
and that your agency has markedly improved as a resource for 
whistleblowers. We look forward to hearing from you about what 
you and your team have accomplished, as well as to learn of 
your plans for continued improvement going forward.
    I also want to welcome this morning Michael Missal and 
thank him for his willingness to be considered for this very 
important position of Inspector General at the VA.
    As we all know and have heard already, IGs play an 
extremely important role in our government. Their work helps us 
save money, reveal and prosecute wrongdoing, promote the 
integrity and efficiency of government, and, hopefully, 
increase the confidence of the American people in their 
government.
    Unfortunately, we have seen far too many IG positions, 
including the one Mr. Missal has been nominated to fill, sit 
vacant for far too long. In fact, the VA has been without a 
permanent Senate-confirmed Inspector General, as we heard, for 
more than 2 years.
    In the past couple of years, in fact, in the last Congress 
and in this Congress, Dr. Coburn and I and now Senator Johnson 
and I have sent letters to the President from every member of 
this Committee in two Congresses now saying to the President we 
know you are busy, and we know there is a lot going on in the 
White House, but these IG vacancies, these positions have been 
vacant for too long, you need to do something about it.
    To his credit, and his staff over there, they have done 
something about it, and your presence here today is further 
evidence of that. We keep having IGs step down, so there are 
new vacancies to fill. But we are getting, I think, much better 
support out of the White House, and our job is now to do our 
job.
    I will close with that. I just ask that the rest of my 
statement be entered for the record,\1\ if I could, and, again, 
welcome one and all. We look forward to hearing from you. Thank 
you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Carper appears in the 
Appendix on page 33.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection, it will be.
    It is the tradition of this Committee to swear in 
witnesses, so if you will both rise and raise your right hand. 
Do you swear the testimony you will give before this Committee 
will be the truth, the whole truth, and nothing but the truth, 
so help you, God?
    Mr. Missal. I do.
    Ms. Lerner. I do.
    Chairman Johnson. Our first nominee is Mr. Michael Missal. 
Mr. Missal is the nominee to be Inspector General at the 
Department of Veterans Affairs. He is currently a partner at 
the law firm K&L Gates, where he leads the firm's policy and 
regulatory practice groups. Mr. Missal holds a B.A. from 
Washington and Lee University and a J.D. from the Catholic 
University of America. Mr. Missal.

  TESTIMONY OF MICHAEL J. MISSAL,\1\ NOMINEE TO BE INSPECTOR 
          GENERAL, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Missal. Thank you. Chairman Johnson, Ranking Member 
Carper, distinguished Members of the Committee on Homeland 
Security and Governmental Affairs (HSGAC), and veterans who 
have served our great Nation. It is an honor and privilege to 
testify before you today as the nominee to be the Inspector 
General of the Department of Veterans Affairs.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Missal appears in the Appendix on 
page 35.
---------------------------------------------------------------------------
    This would have been an incredibly proud day for my 
parents, Harold and Rose Missal, but unfortunately both passed 
away a number of years ago. Aside from family, the most 
important things in my father's life were his military service 
and his public service. My father was a World War II veteran 
who fought in Europe with the Army's 286th Engineer Combat 
Battalion. He was a proud veteran and truly one of the 
``Greatest Generation.''
    My father was also a State judge in Connecticut for more 
than 30 years. He instilled in me the importance of public 
service and the concept of ``giving back.'' He believed that 
there was no higher calling than being in public service and 
working hard to make a difference in people's lives. I started 
my legal career in public service and have always desired to 
return to it. I cannot imagine a more meaningful or important 
role than the Inspector General of the Department of Veterans 
Affairs.
    The Mission Statement of VA is to fulfill President 
Lincoln's promise: ``To care for him who shall have borne the 
battle and for his widow, and his orphan'' by serving and 
honoring the men and women who are America's veterans. VA 
provides essential services and benefits to our veterans, but 
it has more work to do to live up fully to President Lincoln's 
promise.
    This is a particularly critical time for VA as it attempts 
to rebuild the trust and confidence it has lost from our 
veterans, Congress, Veterans Service Organizations (VSOs), and 
the American public. The VA Inspector General plays a crucial 
and independent role in assisting VA meet its mission and 
identifying the instances where it falls short. The need to 
eliminate waste, fraud, and abuse and to promote efficiency and 
integrity at VA may never have been greater. Recent public 
reports from the Office of Inspector General and elsewhere 
underscore the need for significant and prompt improvements in 
the way VA is servicing our veterans. If confirmed, I look 
forward to playing a role in strengthening the programs, 
policies, and culture of VA.
    I have had the opportunity recently to meet with many of 
you and to hear your thoughts and views about VA and the 
workings of the Office of Inspector General. The discussions 
have been extremely constructive and valuable. I recognize your 
bipartisan approach to these issues and the great frustration 
in VA not fully meeting its mission.
    Many of you discussed the important role that 
whistleblowers play in identifying potential issues. I also 
believe that whistleblowers are immensely important to the work 
of the VA Office of Inspector General. If confirmed, one of my 
goals will be to promote an improved environment in which 
whistleblowers have confidence that their concerns will be 
fairly and effectively considered by the Office of Inspector 
General and that their identities will be protected from 
disclosure. I will also take the necessary steps to ensure that 
whistleblowers are fully aware of their right to be free from 
reprisal for making protected disclosures and how to seek 
redress from appropriate authorities if reprisal occurs.
    I believe that I have the experience, skills, judgment, and 
temperament to be a highly effective Inspector General. My 
professional career has provided me with valuable and extensive 
experience in investigations, audits, and inspections, three of 
the primary functions of an Inspector General. I have 
successfully conducted a number of complex and high-profile 
investigations. With respect to audits, I have routinely dealt 
with accounting principles and auditing standards. Finally, I 
have been involved in the inspections of various entities.
    My service on the Management Committee of K&L Gates and my 
role as the co-practice area leader of the policy and 
regulatory practices have provided me with significant 
management experience. As a co-practice area leader, I am 
responsible for the performance of more than 200 policy and 
regulatory lawyers and professionals. The Management Committee 
is also responsible for the overall business and operations of 
the firm, including developing a budget for a firm with over $1 
billion in revenues.
    If confirmed, I pledge to work tirelessly and independently 
on behalf of our veterans and the American public. I also 
pledge to work collaboratively with this Committee and other 
Members of Congress and their staff. Thank you for the 
opportunity to testify before you today, and I look forward to 
your questions.
    Chairman Johnson. Thank you, Mr. Missal.
    Our second nominee is Ms. Carolyn Lerner, who has been 
renominated to serve a second 5-year term as United States 
Special Counsel of the Office of Special Counsel. She holds a 
Bachelor's degree from the University of Michigan and a law 
degree from New York University Law School. Ms. Lerner.

TESTIMONY OF THE HONORABLE CAROLYN N. LERNER,\1\ NOMINEE TO BE 
        SPECIAL COUNSEL, U.S. OFFICE OF SPECIAL COUNSEL

    Ms. Lerner. Thank you. Chairman Johnson, Ranking Member 
Carper, Members of the Committee, thank you for the opportunity 
to testify today. I also want to thank Senator Cardin for his 
kind words.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Lerner appears in the Appendix on 
page 80.
---------------------------------------------------------------------------
    I want to thank my family for their support and 
encouragement over the last 4\1/2\ years since I have taken on 
the new challenge of heading up the Office of Special Counsel. 
I am honored that the President renominated me to serve a 
second term.
    I want to acknowledge the OSC leaders that are here today. 
I am very proud to serve with these exemplary public servants.
    Senator Carper. Could we ask them to raise their hands?
    [Hands raised.]
    All right. Thank you all.
    Ms. Lerner. I can say, without hesitation, that the Office 
of Special Counsel is engaged in the most productive period in 
its history, and this productivity is due to the hard work of 
all of OSC's employees--the folks who are here today, the 
people in the field offices, in Washington, D.C., Oakland, 
Dallas, and Detroit. I am very proud to serve with all of them.
    Our strong results in whistleblower retaliation, 
whistleblower disclosure, Hatch Act, and USERRA cases 
demonstrate this office's ability to promote better and more 
efficient government. For example, our work with whistleblowers 
has prompted improvements in the quality of care for veterans 
at VA centers across the country. We have protected Customs and 
Border Protection (CBP) whistleblowers who reported widespread 
waste and improper overtime payments at the Department of 
Homeland Security. And by working with this Committee in 
oversight hearings, Congress passed bipartisan legislation that 
will save $100 million a year. That is about four times OSC's 
annual budget.
    And we vigorously enforced the Hatch Act and worked with 
this Committee, particularly then-Senator Akaka and Senator 
Mike Lee, to modernize the act by limiting the Federal 
Government's unnecessary interference with State and local 
elections.
    When I was first nominated as Special Counsel, I often 
remarked that OSC was the best kept secret in the Federal 
Government. I wanted this to change so that more employees and 
taxpayers could benefit from the work of this small but 
effective agency. And change it has.
    In 2015, for the first time in the agency's history, we 
received and resolved over 6,000 new matters, a 50-percent 
increase from 2011, when I first took office. This dramatic 
increase in filings indicates that whistleblowers believe they 
can make a difference by coming to OSC. Studies have shown that 
the No. 1 reason that employees do not report waste, fraud, or 
abuse is not because they fear retaliation. It is because they 
do not believe any good will come from their taking the risk. 
If the number of cases filed is any indication of employees' 
willingness to raise concerns--and I think it is--then we are 
moving in the right direction.
    Given that the demand for OSC's services has far exceeded 
our small agency's resources, we have needed to find new and 
more efficient ways to approach increasing caseloads, and we 
have. OSC's cost to resolve a case is down by 45 percent, 
leading to record levels of productivity, and I have focused on 
being a careful steward of the taxpayer dollars.
    I have also found better ways to manage cases. For example, 
I reinvigorated our alternative dispute resolution program 
because we know that mediation saves time and money for both 
agencies and employees alike, and it often results in better 
outcomes. And we are currently experimenting with an innovative 
approach to managing whistleblower cases. The new approach 
consolidates four OSC positions into one. This is proving to be 
both efficient and effective. By taking these smart approaches 
to our growing caseload, we are generating efficiencies without 
compromising the quality of OSC's work. Indeed, when evaluating 
the most important statistic--the number of favorable outcomes 
for whistleblowers and the merit system--we are consistently 
setting records. For example, in 2015, we secured 278 favorable 
actions for whistleblowers and other employees. Prior to my 
tenure, the number of favorable actions had dropped to 29 and 
was consistently below 100 per year.
    But statistics cannot capture OSC's true impact. Our work 
with whistleblowers often saves lives and sparks reforms that 
prevent wasteful, inefficient, or unsafe practices.
    In summary, I am very grateful for the opportunity to have 
served as Special Counsel. But there is still much to be 
accomplished. If confirmed for a second term, I hope to build 
on current successes. I will continue to protect VA and all 
other Federal employees from retaliation, and we will strive to 
find new ways to use our limited resources to improve 
government.
    I thank this Committee for 4\1/2\ years of a productive 
relationship. I look forward to answering your questions.
    Chairman Johnson. Thank you, Ms. Lerner. I want to thank 
all my colleagues that have come here. It just underscores 
really how important we all feel these positions are and what 
these positions have to do and what they offer to government. 
Because we have so many members, we are going to limit 
questions to 5 minutes.
    Let me start out. I have some questions I am going to ask 
both of you, and I would like both of you to answer in series.
    The first one: Is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated? Mr. 
Missal
    Mr. Missal. I do not.
    Chairman Johnson. Ms. Lerner.
    Ms. Lerner. I do not.
    Chairman Johnson. Do you know of anything personal or 
otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated? Mr. Missal.
    Mr. Missal. I do not.
    Chairman Johnson. Ms. Lerner.
    Ms. Lerner. No, I do not.
    Chairman Johnson. Do you agree without reservation to 
comply with any request or summons to appear and testify before 
any duly constituted Committee of Congress if you are 
confirmed? Mr. Missal.
    Mr. Missal. I do, Mr. Chairman.
    Ms. Lerner. Yes, I do.
    Chairman Johnson. OK. Thank you.
    Let me go back to the White Paper. Again, not to beat a 
dead horse, but I think it is just such a powerful example of 
why these positions are important and really to get your 
commitment, both of your commitments, to make sure that we 
rectify the problems within particularly the Office of 
Inspector General.
    There was a whistleblower, Dr. Chris Kirkpatrick. He came 
forward. He was trying to get the attention of the management 
within the VA about the overprescription of opiate drugs. 
Because he came forward, he was terminated. The day of his 
termination he committed suicide.
    If that is not tragic enough, on June 4, 2015, after 
spending 3 years investigating and then not publishing a report 
on the problems of the VA health care system, the Office of 
Inspector General issued and made public a White Paper that 
included this statement: ``I strongly recommend a thorough 
review of the in-depth sheriff's report, a publicly available 
document that is included in the documents produced, records 
produced, pages 5795 to 5851, with specific attention to the 
pages detailing the voluminous amounts and types of marijuana 
and what appears to be other illegal substances found in Dr. 
Kirkpatrick's residence as well as other items including a 
scale and used devices containing marijuana residue. The 
evidence indicates that Dr. Kirkpatrick was likely not only to 
have been using but also distributing the marijuana or other 
illegal substances.''\1\
---------------------------------------------------------------------------
    \1\ The White Paper referenced by Senator Johnson can be found in 
the Appendix on page 333.
---------------------------------------------------------------------------
    I have no idea what any of this had to do with the issue at 
hand in terms of the overprescription of opiates that resulted 
in veterans' deaths and the lack of care that resulted in the 
death by lack of care to Thomas Baer. This is the Office of 
Inspector General writing a report that is retaliating against 
a dead whistleblower.
    Now, I asked Ms. Linda Halliday, when she testified before 
us, I wanted to know who was involved in this within the 
office. There is a problem within the office. I have not gotten 
that answer, and that is my first question to you, Mr. Missal. 
Are you disturbed by this?
    Mr. Missal. I am disturbed by the language in the White 
Paper, yes.
    Chairman Johnson. Are you disturbed that the White Paper 
was ever issued?
    Mr. Missal. I just do not know enough about the facts and 
circumstances as to why it would, but that is certainly one of 
my first priorities would be to look at that.
    Chairman Johnson. Will you cooperate with this Committee 
and me to find out who was involved in the writing of this 
White Paper in the office?
    Mr. Missal. Mr. Chairman, I will provide you the 
information you need to get the answers to your questions.
    Chairman Johnson. Also, this Committee was forced, because 
of the lack of cooperation by the Acting Inspector General, to 
issue a subpoena on April 29. That subpoena has yet to be 
complied with.
    Now, we are getting many excuses for not complying with it, 
privacy issues. We do not want to reveal any private 
information. Obviously, the Office of Inspector General had no 
problem revealing private information publicly. We certainly 
have no interest in that. Will you commit yourself to making 
sure that our subpoena is complied with so we can get to the 
bottom of not only the problems within the Tomah VA system but 
within other health care systems within the VA, but also to get 
to the bottom of the problems within the Office of Inspector 
General? Will you comply with that subpoena?
    Mr. Missal. Mr. Chairman, I have not seen the subpoena, but 
I certainly will look at it. My goal is to have a cooperative 
and collaborative relationship with this Committee. I hope in 
the future we do not need any more subpoenas. But I commit that 
I will look at the subpoena and will address all the issues in 
it.
    Chairman Johnson. OK. I will be rather tenacious in looking 
for cooperation on that.
    Ms. Lerner, I just want to get your assessment. We talked 
yesterday a little bit about this White Paper. I realize this 
is probably not going to be within your office's jurisdiction, 
but can you just talk about how corrosive something like that 
is coming from the Office of Inspector General?
    Ms. Lerner. One of the primary roles of an IG office is to 
inspire confidence in employees because you need them to do 
your work as an IG. I think it is similar to the Office of 
Special Counsel. Employees need to feel comfortable coming to 
you and reporting waste, fraud, abuse, and other misconduct. It 
is the lifeblood of what we do. And my concern with that White 
Paper is that it sends a message to the wider VA community that 
if you do come forward, your reputation may become an issue. 
And that I think has a very chilling effect potentially on the 
workforce, and so it concerns me from that perspective.
    Chairman Johnson. OK. Thank you. I want to be respectful of 
time. I will go to Senator Carper.
    Senator Carper. Thanks again very much.
    Mr. Missal, the IG launched investigations over a year ago, 
I think maybe close to 100 investigations, at facilities across 
the country. I am told there are about 25 that are still 
outstanding and incomplete. I am told that the workload that 
the IG's office carries is enormous, and the other challenges 
and problems are far greater than the workforce allows them to 
address. What should be done about that? And I might say the VA 
facility in Wilmington, Delaware, including South Jersey and 
all of Delaware, we are very proud of, but we have been waiting 
for a long time for that report.
    Mr. Missal. Well, Senator, one of the first priorities, if 
confirmed, will be to immerse myself into the work, the 
priorities, the plans of the office to make sure that things 
are properly staffed. If I come to the conclusion that 
additional resources are needed, I certainly would bring it to 
the attention of this Committee.
    Senator Carper. All right. Thank you. Let me just talk 
about cross-agency collaboration between the VA IG's office and 
the Office of Special Counsel. We have heard that it is not the 
best, and I always like to say if it is not perfect, make it 
better. That is one of my guiding principles in life. What do 
you think you all might do, each of you just very briefly, what 
might you do to improve the relationship between your agencies 
and to better protect whistleblowers? Do you want to go first, 
Ms. Lerner?
    Ms. Lerner. I guess it is better to be forward-looking than 
backward, but--and I am very optimistic that we will be able to 
work with the new VA IG leadership. The primary problem that we 
have had in the past has been basically the lack of a 
collaborative and cooperative relationship, and in particular 
with regards to information sharing, which is really important 
so that we are not duplicating efforts, and using our resources 
wisely, and we should be sharing information with each other. I 
am very hopeful that with new leadership that will happen. Mr. 
Missal and I have spoken a couple of times. I am sure that we 
will have further conversations about the ways that our offices 
can work together in a productive way.
    Senator Carper. Good. Thank you.
    Mr. Missal, just very briefly.
    Mr. Missal. Sure. I believe that the Office of Special 
Counsel plays a really important role, that the mission of the 
Office of Inspector General is very similar in some respects to 
what the Office of Special Counsel does. And they should work 
very closely together, share resources, share information, work 
collaboratively.
    Senator Carper. OK. Let us talk about whistleblower 
protection. As I think others have mentioned, maybe the 
Chairman, our Committee held a hearing where VA employees 
recounted their experiences blowing the whistle on misconduct. 
Some of these whistleblowers expressed the view that we also 
heard from others that the IG's office does not maintain 
whistleblower confidentiality when investigating complaints. I 
do not know if you are aware of these concerns. I would like to 
ask you if you are. What would you do to find out if they are 
valid? And if they are, what would you do about it?
    Mr. Missal. Well, I am generally aware of it from what I 
have read in publicly available information. This is something 
that I have zero tolerance for in terms of any mistreatment of 
whistleblowers. I share Ms. Lerner's belief that whistleblowers 
are very critical to the workings of better government, and one 
of my goals would be to increase the environment for 
whistleblowers so that they feel comfortable coming forward and 
to treat them with respect and dignity.
    Senator Carper. All right. Ms. Lerner, Senator Cardin in 
his introduction of you went through some metrics, interesting 
metrics--you mentioned them as well--in terms of measuring the 
performance, good performance, by you and the team that you 
lead. What could other agency heads, what could other managers 
in the Federal Government learn from you and from your team 
that might be transferable to them?
    Ms. Lerner. Thank you for the question. It is an 
interesting one. I think necessity is the mother of invention--
I think that is the----
    Senator Carper. I have heard that before.
    Ms. Lerner. And we really needed to come up with more 
efficient, creative ways of doing business because of the 
influx of cases. Our staff has seen their caseloads double and 
triple. We are inundated with cases. And we are a small agency. 
We have about 140 employees. We have jurisdiction for the 
entire civil workforce. With the new VA cases that make up 
about 30 or 40 percent of our cases, our caseload increased by 
1,000 in just over one year. So we have had to look really 
carefully at the way we do business and see if there are more 
efficient ways of doing it.
    One thing that I have really emphasized is mediation. It 
gets cases resolved more quickly, often with better results, 
and without a full investigation. We do not have to spend a 
year investigating a case that we think has merit. If we think 
that we can get it solved early, that is what we do, and that 
has been my instruction to the case examiners as well. We do 
not even have to get to the point where it goes to mediation or 
to a full investigation. If the case examiners can resolve a 
case early on, let us do it.
    We have come up with a pilot project that consolidates four 
different positions into one to try and see if that can lead to 
more efficiencies and be more effective, and I am very 
optimistic that that project is going to work out.
    So I guess the short answer is look for new ways of doing 
business. Old models may work, but sometimes you have to be 
flexible and come up with more efficient ways.
    Senator Carper. My time has expired. I just want to add one 
last thing. If there are things that we need to be doing, we, 
this Committee, or the Senate, the House, the Administration, 
to enable you and your folks to do an even better job going 
forward and continue these kind of results, please let us know. 
Thank you.
    Ms. Lerner. Thank you.
    Senator Carper. And I thank you both for a great job.
    Chairman Johnson. Thank you, Senator Carper.
    Before I move on to Senator Portman, I just want to ask 
consent to enter into the record the White Paper issued by the 
Office of Inspector General,\1\ my July 8 response to the White 
Paper, my September 29 letter to Ms. Linda Halliday asking her 
to find out who wrote the White Paper, and then her October 6 
response saying she would not give me those names.\2\ So we 
will just enter that in the record.
---------------------------------------------------------------------------
    \1\ The White Paper submitted by Senator Johnson appears in the 
Appendix on page 333.
    \2\ The letters submitted by Senator Johnson appears in the 
Appendix on page 316.
---------------------------------------------------------------------------
    Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman. And for both of 
you, thank you for your continued interest in serving your 
country.
    I am going to focus my comments, Mr. Missal, on your 
important role. The men and women in uniform who have put their 
lives at risk for all of us deserve the best, and as you know, 
they have not always received that in terms of their health 
care. This is an issue that has had a lot of focus in general. 
I do think that Secretary McDonald appreciates the need for us 
to reform the way veterans are getting their health care. Back 
home, I have held a bunch of town meetings on this and gotten 
some good input. We have a long list of concerns. The long 
waiting lists you know about, the adjudication of claims, some 
of the eligibility requirements. Things like Agent Orange 
eligibility is a big concern back in Ohio.
    But let me focus on one that is a little different, and it 
builds on something the Chairman just talked about, and that is 
the issue of mental health treatment and the overprescription 
of painkillers, particularly opiates, that have led too often 
to the use of heroin and to some tragic circumstances.
    I have been focusing on this issue for a number of years, 
and I think, although there has been some progress made, there 
is a lot more that needs to be done. So I would just ask you in 
your role as Inspector General--where, as you know, you have a 
responsibility to look at health care issues, review medical 
center operations, evaluate the health care programs, provide 
oversight really on the critical role that the VA plays in 
health care--what you plan to do about that.
    One common theme that I have found as I talk to veterans is 
that too often it is just too easy for doctors in the VA system 
to prescribe painkillers that are narcotics, that are opiates, 
that, again, lead to a similar high to heroin but a more 
expensive one. This, of course, has devastated families, torn 
communities apart, robbed individuals of their dreams.
    I recently met with a veteran in Columbus, Ohio, who lost a 
family member who started on prescription drugs that were given 
to him by the VA to deal with pain, and then moved to heroin 
and eventually overdosed on heroin. The Chairman talked about 
the whistleblower who helped to reveal some of these cases and 
eventually committed suicide.
    This VA Inspector General report from 2012 and 2013 found 
that VA providers often inadequately assessed patients who were 
prescribed opiates, inadequately monitored patients on opiates, 
were asked by facility managers to write opiate prescriptions 
for patients they had not even assessed. There is a more recent 
concern I have, which is the use of opiates for post traumatic 
stress disorder (PTSD) and traumatic brain injury. This report 
was just issued last week. This is a report by the Government 
Accountability Office (GAO) with regard to the Department of 
Defense (DOD) and VA health care actions needed to help ensure 
appropriate medication and continuation in prescribing 
practices. I brought two copies today because, Ms. Lerner, I 
think you also will be indirectly involved in this issue. I 
would like to hand these to you today and also enter this, Mr. 
Chairman, into the record.\1\ It is fresh off the presses, and 
it has some very disturbing information in it, including the 
following:
---------------------------------------------------------------------------
    \1\ The GAO report submitted by Senator Portman appears in the 
Appendix on page 346.
---------------------------------------------------------------------------
    VA's new policy to ensure continuation of mental health 
medications lacks clarity on the types of medications 
considered mental health medications. As a result, the 
providers may be inappropriately changing or discontinuing 
mental health medications due to formulary differences, 
potentially increasing the risk of adverse health effects for 
transitioning servicemembers. And, again, if you look on pages 
14, 15, 16, and page 23, you will see the reference to opiate 
use even for traumatic brain injury.
    So my question to you is: If nominated, I would like your 
assurance you are going to look into these matters in order to 
help us hold the VA accountable for the proper care of our 
veterans who deserve the best.
    Mr. Missal. Senator, I will do so, including look at any 
recommendations that have been previously made on these issues 
and see whether or not they have been implemented.
    Senator Portman. Thank you, Mr. Missal.
    Thank you, Mr. Chairman.
    Chairman Johnson. And without objection, your and my 
records will be entered into the record.
    Senator Baldwin.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, Mr. Chairman. I want to thank 
you for holding this nomination hearing today.
    Welcome to the nominees. I thank you both for being here 
and your willingness to serve the public, and especially to 
serve our Nation's veterans. The Special Counsel at the Office 
of Special Counsel and the Inspector General at the Department 
of Veterans Affairs both play essential roles in the oversight 
of our Government and the care of our veterans. As I have seen 
in Tomah, Wisconsin, and indeed in the rest of the Nation, 
effective oversight is crucial to confronting the many 
challenges that plague VA. Unfortunately, in the past few 
years, this oversight has been lacking, and troubling issues 
like whistleblower retaliation have persisted.
    So I am glad, Mr. Chairman, that we are moving forward with 
these nominees today, and I hope that this hearing offers us a 
chance to make progress in fixing what is broken.
    Mr. Missal, you are aware of some of the challenges facing 
the Tomah VA Medical Center in Wisconsin and the IG's early 
role in addressing those challenges in the form of a review 
that was done on inappropriate prescribing of controlled 
substances and abuse of authority. That review was closed--in 
my view, prematurely--and subsequent investigations have 
further exposed serious issues at the Tomah VA, issues that 
were allowed to go on for far too long with absolutely tragic 
consequences.
    As we move forward, it is essential that the VA Office of 
Inspector General is more transparent and works more 
cooperatively with Congress to confront the serious problems 
that exist at the VA.
    In order to help make the IG's office more transparent, I 
successfully included language in the recently passed omnibus 
appropriations bill to ensure that when the VA OIG completes a 
report, it is promptly shared with the VA Secretary, Congress, 
and the public. That language would help address failures of 
transparency and agency oversight by requiring any 
recommendations made by the VA OIG during investigations, 
audits, or other reports to be sent directly to the VA 
Secretary--something that was not done in the case that I 
described. In addition, these recommendations would be made 
available to the public and submitted directly to relevant 
congressional oversight committees.
    If confirmed, will you commit to significantly improving 
transparency at the VA Office of Inspector General? And if so, 
what specific steps will you take to make sure this happens?
    Mr. Missal. Senator, I will do so. I agree with you. I 
believe transparency, increased transparency, is very 
important. I think it is one of the things that could increase 
the trust and confidence that our veterans and the American 
public would have in not only the VA OIG but VA as well. I 
intend to take a number of steps, including looking at what 
they are doing now. If there are reports that are not being 
made public that should be made public, particularly on the 
health care side, I cannot imagine a situation--although I do 
need to learn more--why a health care report would not be 
released publicly if it is completed. So that is one of the 
things I am going to look at and then have further discussions 
with the staff about other opportunities to increase 
transparency.
    Senator Baldwin. Ms. Lerner, you have mentioned that 30 to 
40 percent of your caseload comes from VA employees and that 
these employees were projected to make up approximately 37.5 
percent of the whistleblower retaliation cases in the past 
year. As I have seen firsthand in Wisconsin with retaliation 
against whistleblowers at the Tomah VA and other facilities in 
the State, there are significant and troubling issues with the 
whistleblower culture at the Department of Veterans Affairs. 
The Office of Special Counsel plays a key role and you are an 
ally in this area, both in advocating for individual 
whistleblowers, such as Ryan Honl, who blew the whistle on 
opioid overprescription at the Tomah VA, and in pressing for 
policy changes at the VA.
    I have run out of time, but I hope you will followup on 
your testimony at the Appropriations Subcommittee hearing on 
whistleblower culture at the VA in terms of your as whether 
enough is being done at the VA at this point to create an 
environment where whistleblowers can feel safe in coming 
forward with information that helps improve the agency.
    Chairman Johnson. Would you like to quickly respond?
    Ms. Lerner. Sure. Just very briefly, I think that there is 
a really good message that is coming from the top. What I hear 
Secretary McDonald saying and Deputy Secretary Gibson saying, 
it is new from what we heard a year and a half, 2 years ago, 
and that sets a tone that is really important.
    The problem is the VA is such a large institution. It has 
so many facilities. It has the regions and then the individual 
facilities. And that message has to trickle down throughout the 
country, and it may take a little bit of time, but there are 
things that can be done. More training: The VA is doing a lot 
now. They can do more. We have helped them with training. We 
have trained the trainers. We have trained their investigators. 
We have trained their regional counsel. We have made training 
materials available to them. They need to do more of it.
    They need to hold managers accountable. One of the missing 
links here--we have seen a lot of progress in many ways, but 
the one area that still concerns me very much is discipline for 
managers who are found responsible. And we need to work on 
that. That will help change the culture.
    So just in brief, I think the VA is heading in the right 
direction. I think a new IG is going to really help a lot, so 
there is reason to be optimistic, but there is still a lot of 
work to be done.
    Chairman Johnson. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. I want to thank the Chairman, and I want to 
thank both of you for your service and your willingness to 
serve in such important positions for our country.
    There has been a lot of discussion today about the Tomah VA 
situation, and I was very interested to hear you say, Ms. 
Lerner, that we need to hold managers in the VA more 
accountable for their actions. Yet what happened not just at 
Tomah but also with what happened at Phoenix is appalling 
because there were thousands of dollars of bonuses, actually 
millions overall, but thousands to individuals each at those VA 
facilities who were managers, who got bonuses even though they 
were participating in the misconduct that occurred, and this 
body here in HSGAC, Senator McCaskill and I introduced a bill 
to claw back those bonuses and to deal with this going forward. 
It was changed to be only prospective. Our Committee voted it 
out, and the VA Committee did its work and voted it out. And 
guess what? I tried to get it passed right before we left at 
the end of the year, and people are anonymously objecting to 
essentially just saying if you commit misconduct--because the 
managers at the Tomah facility got bonuses between $1,000 to 
$4,000 even though they oversaw the overprescription of opiates 
to veterans and, of course, we know that veterans died.
    So we have to be part of the solution, too, and if people 
are going to object to legislation like that, it is just 
appalling to me. So I just wanted to bring that up because, as 
we see more accountability, if we are going to continue giving 
bonuses to people who participate in misconduct, and with no 
mechanism in current law to actually take back those bonuses or 
revisit issues like that or to actually discipline managers, 
then we are going to continue to see this cycle going forward.
    I know we did the right thing in this Committee, but I am 
going to continue to push this on the Senate floor because I 
find it appalling that anyone would object to that legislation. 
And so come forward, identify yourself. I look forward to 
having the debate on the floor with you about why you think 
that this is not appropriate.
    I am so glad to see both of you here. Ms. Lerner, thank you 
for your incredible work. We are so glad to have your 
renomination here today. And, Mr. Missal, you are being asked 
to perform a very important job. On a bipartisan basis in this 
Committee, this position was vacant for 630 days, and all of us 
really pushed. This was not a partisan issue. We needed this 
position filled because of the many issues not just at Tomah 
and Phoenix, across the country we were hearing from our 
veterans that needed a watchdog. So I am so glad to see you 
here today, and you have such an important job, working with 
Ms. Lerner and really having accountability in the VA. Our 
veterans deserve that, and we need to do it, and you have such 
an important job.
    I wanted to ask you about health care in the VA, and that 
is the Veterans Choice Program, which offers eligibility to 
veterans, the option of receiving care in their community at a 
private provider. This is very important in New Hampshire 
because we do not have a full-service veterans hospital. And, 
in fact, there is a provision that was passed in the VA reform 
law that allows our veterans in New Hampshire, almost like a 
pilot, allows them to go seek private care because we do not 
have a full-service hospital. But there have been a lot of 
bumps in actually getting this program right for our veterans, 
and the VA's Inspector General Office has issued semiannual 
reports. The most recent report has only a passing reference to 
the Choice Program.
    So I would ask you, I hope that as you do your work in the 
Inspector General's Office, all the work that we have tried to 
do on the wait lists, on the issue of making sure that veterans 
have access to care in their community, we have to get this 
program right. We have to allow veterans to choose so they are 
not waiting and so they are not driving long distance for their 
care, especially in my home State of New Hampshire. But also 
this is an issue across the country.
    So I would ask you how familiar you are with the Veterans 
Choice Program, what oversight you will bring to the program, 
and do I have your commitment to personal oversight over this 
program and some review of this program to make sure we get 
this right for our veterans?
    Mr. Missal. Senator, I am generally aware of the program. I 
know it is a relatively new program that was implemented to 
fill a real need out there. I do not know what oversight the 
OIG's office is doing right now, but you do have my commitment 
to look into it because I do recognize how important it is. And 
it is a new program. There is a possibility there could be 
issues, and you want to address those issues before they become 
larger issues.
    Senator Ayotte. Well, let me just say that I do not think 
there has been enough oversight at this point, and also, as a 
new program, this is interjecting change to the VA, and we all 
know that often people do not want to change when there is a 
new program to give veterans access to care. So I would ask you 
to make sure that we also deal with the issue of this type of 
change coming with the agency and focus on the oversight of 
getting it right for our veterans, because Congress, we support 
this program. It is important for our veterans to have the 
choice for their care and to have the access so that they never 
have to wait and they do not have to drive long distances to 
get the care that they have earned defending this Nation.
    Mr. Missal. I will do so, Senator.
    Senator Ayotte. All right. Thank you both. I appreciate it.
    Chairman Johnson. Thank you, Senator Ayotte.
    Just to underscore the point, ``bumps'' is being kind. 
There is a veteran in Wisconsin who had pancreatic cancer, and 
they were forcing him to drive more than 100 miles to get 
treatment in Milwaukee, where, again, he could have gone to 
Marshfield.
    Senator Ayotte. Yes, it is crazy.
    Chairman Johnson. It is.
    Senator Ayotte. It is crazy, and our veterans should not 
have to drive. They should be able to decide, and we owe it to 
them to get this right.
    Chairman Johnson. So, again, you view that as a pilot 
program. There are a lot of bumps, and that is something that 
the Office of Inspector General really needs to look into. 
Senator Ernst

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you very much. It is so nice to have 
you both in front of us today. Thank you, Mr. Chairman, for 
calling for this nomination hearing.
    I want to thank your families as well for joining you 
today. It takes a lot to put that on their shoulders as well. 
And for those that came from the OSC, we want to thank you for 
your very important work.
    You can tell--this is not the Veterans' Affairs Committee, 
but you can tell that the members of this Committee are very, 
very passionate about the care that not only our veterans are 
provided through the VA health care system, but also those that 
see issues within that VA health care system and protecting 
those whistleblowers and making sure that they are afforded the 
opportunity to speak out without reprisal. So thank you again 
for the work that you are doing.
    Mr. Missal, it is good to see you again. I appreciate you 
taking the time before the holidays to sit down with me and my 
staff and talk through a number of these issues. Again, very 
passionate about the care that we provide to our veterans.
    It was actually last March when all of the Members of this 
Committee joined together in a letter to the President asking 
for a nominee to this position of Inspector General for the VA. 
So we do need to act swiftly on this. I am very excited about 
this opportunity, and I, like a number of our other Members--
Chairman Johnson, you and Senator Baldwin have had frustrations 
with the VA in Wisconsin--all of us have had specific 
frustrations with our own VA health care centers.
    Last February, I requested a review of the mental health 
care provided to an Iraq war veteran from the Des Moines area, 
a young man that committed suicide. And the VA IG's office did 
not report back to me for many months. And, again, this was a 
very serious situation. Again, a young man had taken his own 
life out of the frustration that he felt, and now the 
frustration that we all bear.
    So, again, it was months before they got back to my office, 
and my State staff has also reported to me that the VA OIG has 
failed to respond to their repeated requests for an update on 
three cases, now three additional cases in Iowa that were 
opened last spring. So this is not a one-time occurrence for 
any of us. Repeated requests for information on cases that are 
going unanswered.
    Can you please just repeat to me your commitment to all of 
us on this Committee that you will assist us in our oversight 
responsibilities in a timely manner and keep us effectively 
informed on all OIG matters?
    Mr. Missal. Senator, I recognize the important role an IG 
can play in assisting the Committee and Congress in its 
oversight responsibility. I think you will find me highly 
communicative, that I would respond very quickly to requests. I 
may not always have the answer right away. It sometimes takes 
time to develop it. But I just believe it is important to keep 
people informed of the progress so you know exactly what is 
going on.
    Senator Ernst. That is wonderful. I appreciate that very 
much because, unfortunately, as we have seen all too many times 
in the past that there has not been the followup necessary, and 
those months at delay could mean another veteran that has been 
left untreated or another veteran that takes their own life 
because of the lack of care provided by the VA. So we do have 
to be vigilant in this oversight, and it quite literally is a 
matter of life and death. So I just want to make sure that we 
all understand how important it is for timely response.
    I was a little appalled to learn during this Committee's 
hearing last September that the VA OIG investigates only a 
fraction of the approximately 40,000 complaints--40,000--that 
it gets annually. And I understand that both the VA OIG and the 
OSC are resource constrained, but a top priority of both 
organizations should be ensuring that not one of these VA 
whistleblower complaints goes unresolved.
    So I would like to hear just very briefly your general 
thoughts on that.
    Mr. Missal. Sure. I understand there are 40,000 contacts to 
the hotline a year, give or take some. I do not know what they 
are doing to triage those, how they decide which ones are 
addressed, which ones are not. But that is, again, one thing 
that I find very important. If there is an issue out there that 
needs to be addressed, it needs to be addressed quickly and 
figure out a way to find resources to at least initially 
address them and see what can be done.
    Senator Ernst. Thank you.
    Ms. Lerner, just very briefly.
    Ms. Lerner. Sure. Let me tell you just briefly some of the 
steps that OSC has taken to prioritize VA cases. We have set up 
a triage system that prioritizes VA health and safety cases, so 
any case involving health and safety, whether it is a 
disclosure or someone who claims retaliation for having 
reported a health and safety violation, those get a very quick 
look. We have a senior counsel who is assigned full-time to 
coordinate our VA cases. I have assigned one of my deputies to 
coordinate VA cases. They meet weekly with the VA team of 
employees at OSC that we created after we got this total influx 
of new cases. That team meets weekly.
    We have worked with the VA Office of General Counsel and 
Office of Accountability and Review to expedite the resolution 
of VA retaliation cases so that we can get quicker, better 
results without having to do a full investigation.
    So those are just some of the things that we are doing to 
prioritize VA cases at the OSC.
    Senator Ernst. I appreciate it very much.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you both for being here and for 
your service to get to this point.
    Ms. Lerner, let me ask you about budget items. When you 
first came in--well, let us go back to 2011. We have a good 
picture there. Your budget was $18 million. It is now $24 
million. Tell us about, as you have mentioned before, how we 
are getting a bang for a buck in that increased spending. What 
has changed, both the efficiency of that kind of increase in 
budget, and what is the taxpayer getting better now than they 
were in 2011?
    Ms. Lerner. Thank you for your question. I am really proud 
of the way we have been able to manage our budget. When I came 
in, we had about 108 employees. Again, we have jurisdiction for 
the entire Federal civilian workforce, basically more or less, 
a few exceptions. And we now have about 140 employees, so that 
increase in personnel has gone a long way towards letting us 
handle this influx of VA cases.
    Let me give you an example of one case that I think is 
typical of the way we can get a return on our budget, return on 
the taxpayer's money.
    Department of Homeland Security whistleblowers came to us 
reporting the abuse of overtime, widespread abuse by CBP and 
Border Patrol agents and other employees at the Department. We 
were able to do a full investigation. We did a full report, and 
working with this Committee, we were able to get legislation, 
bipartisan legislation, through Congress that changes the 
overtime pay system at the Department of Homeland Security. The 
Congressional Budget Office (CBO) estimates that those changes 
are going to result in $100 million a year of savings. Our 
budget is, as you said, about $24 million right now.
    So those types of cases are out there. We are making them. 
I mean, they are not all $100 million a year of savings, but 
that is the type of case that we think we are now capable of 
taking. We are working with Congress. We view ourselves as 
partners with this Committee and other committees to get 
legislation through when it is needed. So that is the kind of 
bang that we are getting for the buck.
    Senator Lankford. OK. That is helpful. We will get a chance 
to followup in the days ahead on that as well, just to be able 
to see the effectiveness of that. This is a ``feed the lions'' 
type strategy to say where we are actually effective and people 
are efficient with dollars. That is entirely reasonable to 
continue to be able to help their budget because they are 
efficient and have to actually carry them out.
    Tell me about internal controls for personally identifiable 
information (PII) and limiting the access of individuals to 
information that they really do not need to access. This has 
been an issue in several of the agencies where they have access 
to information for other people, both inside and outside the 
organization, and no internal controls to make sure they are 
not accessing it inappropriately.
    Ms. Lerner. Well, that has definitely been a problem at the 
VA and something that we have talked to them a lot about. We 
think that there are technical fixes that can solve that 
problem fairly easily at the VA, and I look forward to talking 
to Mr. Missal about that.
    What we have seen at the VA is, many of the folks who work 
there are also patients.
    Senator Lankford. Right.
    Ms. Lerner. And so what is happening is someone who might 
be sort of mischief-minded is going into the medical records of 
their coworkers or oftentimes it is people who have blown the 
whistle and getting access to their medical information.
    Senator Lankford. Mr. Missal, how do we stop that?
    Mr. Missal. I think you need to look at it very closely. If 
there is a technology fix to do, I think we need to----
    Senator Lankford. Which I think there is.
    Mr. Missal [continuing]. Use the resources to do it, and 
then to make a recommendation and then followup to make sure 
that recommendation is implemented.
    Senator Lankford. I would highly recommend that we do look 
through that process to see what technology. Some agencies do a 
great job at that. Most agencies do not. They are not limiting 
the access of people that work there to getting information 
that they do not have any business professionally actually 
accessing. And VA is one of those areas of many there. Many 
people around this dais know--and I have talked to many others 
around this place. I am one of many that I look toward the 
horizon with VA and see the days ahead that VA will be small-
scale clinics for ongoing care, but that veterans can choose to 
go any place they want to go for health care in the days ahead, 
and that the veterans have this absolute choice to say you do 
not have to drive past seven good hospitals to be able to get 
to the VA hospital, then wait 3 months for a knee replacement 
that you could get 3 miles from your house, that there is the 
moment that we actually treat our veterans with the ability to 
be able to choose. And I know you have already had some 
conversation about the Choice Program. I think that does need a 
tremendous amount of oversight. My perception is from meeting 
with some of the individuals at VA that they seem reluctant to 
actually implement the congressional mandate for choice, and 
they are trying to find ways not to give choice, or to say, 
yes, we can take care of that internally. But I think that is a 
big issue.
    I would also say to you that I would recommend that the IG 
looks at things like staff turnover. Every time I talk to 
veterans, they say, ``When I return back to the VA, I am with a 
new doctor and I saw a different nurse than I saw last year,'' 
because the turnover rate is so high. There is a basic question 
there of why. Why would the turnover rate be high? Because that 
affects actual care for those individuals.
    I would like to ask you as well just on priority of your 
own investigations and your own personality with this, there is 
a tendency with some of the IGs to look at efficiency of how 
the agency operates rather than the quality of care the patient 
receives. So as an IG, what I am interested to hear from you is 
when you do investigations, are you looking at how well paper 
is moving and how fast paper is moving through the VA or how 
good the care will be for the veteran when they come into the 
VA centers?
    Mr. Missal. I do not think they are necessarily mutually 
exclusive. I think you can look at both. The quality of care to 
me for veterans is a critically important issue, but also the 
economy and efficiencies of how the Department operates, which 
could impact the quality of care, I think is also very 
important.
    Senator Lankford. OK. So at the end of the day, veteran 
care will be essential. I will tell you one of the veteran 
families that I spoke to just last weekend, trying to gather 
all the records for their dad, and they cannot go any one place 
and get his health records. The dentist has it over here, and 
the general person has it here, and the surgeon has it over 
here, and they all have to request each other. And so there is 
a lot of conversation about centralized records. That is not 
actually occurring in the VA system. And literally the 
different specialists do not know what each other is doing, and 
when they even try to get all the files together, they 
literally were going section to section to be able to get it.
    There is some basic operational movement of paper that does 
affect the quality of care for our veterans, but at the end of 
the day, I would encourage you to focus in on what is the care 
that is being received and what are the impediments to good 
quality care more than anything else.
    Mr. Missal. I will, Senator.
    Senator Lankford. Thank you.
    Chairman Johnson. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman.
    It is interesting, because we have been talking a lot about 
efficiency, a lot about quality of care, but the issues that 
the VA confronts are issues of life and death. That is how 
serious this is. That is how serious we are about making sure 
that we have an oversight system and that we have partnerships 
with both of your agencies in terms of providing oversight, 
because it can mean the difference between life and death. That 
is how critical this is.
    And as we kind of look going forward, I think it is 
important, although you have heard a lot about choice here, 
that you understand this from the perspective of a rural State, 
where I think the Chairman talked about a 100-mile drive. I 
have Native American veterans who live in the northwest part of 
my State who literally have to drive 5 hours to get 
chemotherapy.
    Now, as somebody who is a breast cancer survivor, the last 
thing I wanted to do before and after my chemotherapy was get 
in a car and drive 5 hours.
    This is a sacred duty that we have to make sure that our 
veterans are treated appropriately, and this body, the U.S. 
Congress, signed by the President, have adopted a new policy, 
which is called ``Choice,'' that there ought to be an 
opportunity for that veteran, that 90-year-old veteran who may 
be getting chemotherapy to get it at home or get it as close to 
home as he can or she can.
    And so I would tell you, since the rollout of the Choice 
Program in November 2014, an overwhelming number of veterans, 
family members, doctors, and health care providers have 
contacted my office out of frustration. And you hear that 
frustration among all the members here. We have to have a 
watchdog, because this is a very big bureaucracy that thinks 
they are just going to wait this out, that if people's 
attention just deviates from the problems of the past, that we 
will, in fact, be pulled off target.
    I am not going to be pulled off target on the Choice 
Program. I am not going to be pulled off target on making sure 
that our veterans get the benefits that they have earned by 
serving this country. And so, Mr. Missal--and I thank you so 
much for coming into my office. I know that you heard the same 
kind of passion there. But I want to really impress upon you 
how truly important it is to look at this program and look at 
what this means, because it can mean life and death, and to 
think about even if there is not outright fraud or abuse--and 
no one is claiming that--that the efficiency and fulfilling the 
promise of this program is within your mission.
    Mr. Missal. I understand that, Senator.
    Senator Heitkamp. OK. Thank you. And I want to maybe just 
take a moment and talk about following up with Senator Ayotte, 
talk about the bonuses, because, is it appalling that these 
bonuses were paid and not paid back? Absolutely. And we will 
work through that. But what is appalling to me is that we 
created a system by providing bonuses that provided a huge 
incentive for fraud. And I know this is far-reaching, but as 
you look at kind of administration, how do you see being 
proactive on the front end of those kinds of decisions that are 
made to prevent fraud or prevent incentivizing fraud by staff?
    Mr. Missal. Sure. I think there are several things. One, 
that could be part of the audit function when you are going to 
test things to identify issues before they become larger 
problems.
    Second, the IG also can weigh in on proposed legislation to 
determine the efficiency, effectiveness, things like that, so 
the ways the IG can use his or her voice to come in on issues 
such as the ones you raise.
    Senator Heitkamp. So the great tragedy is that an incentive 
program that was built to improve the quality of care actually 
led, in my opinion, to fraud because all of a sudden there was 
a monetary reward which you could get if you lied. Right?
    Mr. Missal. Correct.
    Senator Heitkamp. So that is the kind of thing that we need 
to be very proactive on, not just taking care of what are the 
decisions today but how decisions in administering the programs 
at the VA can, in fact, create even more bureaucracy for our 
veterans.
    So I want to thank both of you for stepping up and for 
being part of this important life-and-death mission, which is 
providing those services that some of the great heroes of this 
country have earned. And so thank you, and if there is anything 
that we can do on this Committee or anything I can personally 
do to assist you in carrying out that mission, I hope that you 
pick up the phone and call me personally.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Heitkamp.
    I think because of the strong attendance and, I think, 
thoughtful questions and answers, I really do not have any 
further questions. I know Senator Carper does. Before we give 
you both an opportunity to kind of make a closing comment, we 
will turn to Senator Carper.
    Senator Carper. Thanks so much. I was not going to ask 
another question, but I want to ask one lighthearted question 
and one serious question.
    I said to the Chairman and I would say it to Senator 
Heitkamp--I have spoken to our staffs--I feel very fortunate. I 
felt fortunate walking into this hearing that one of you is 
already serving in an important role in our government and that 
the other is willing to serve. You are two very impressive 
people. I would just ask your wife--was it Deborah?
    Mr. Missal. Yes.
    Senator Carper. And your husband--is it Dwight?
    Ms. Lerner. Yes.
    Senator Carper. Were these two people this smart when you 
first met them? [Laughter.]
    Have they, like, learned from you? Has it, like, rubbed 
off? I mean, what--I do not know.
    Mr. Missal. I do not want her to answer that question. 
[Laughter.]
    Ms. Lerner. My kids would tell you it is all them.
    Senator Carper. I have heard many people say of their teen-
aged children that their kids think that they are just the 
dumbest parents in the world, and then when the kids turn 18 or 
19, it all changes. How old is your son?
    Mr. Missal. 22.
    Senator Carper. And how old are your kids?
    Ms. Lerner. My daughter is 18, and my son is 21.
    Senator Carper. All right. Well, you are over the hill.
    Ms. Lerner. We are still waiting for that. [Laughter.]
    Senator Carper. You are almost over the hump.
    Here is my serious question: James Lankford asked really 
good questions, a very perceptive fellow, and talked about the 
idea of having a VA in the future where we have our outpatient 
clinics, which I think do provide great service. But for the 
most part, the mother ship--the hospitals and so forth--would 
use existing hospitals within the communities across our 
country, and that is an idea that has some appeal. But I also 
know as a veteran myself, somebody who has spent a lot of 
time--23 years, 5 years in a hot war in Southeast Asia, another 
18 right up to the end of the cold war--as a naval flight 
officer. But I know that sometimes the conditions that veterans 
are treated for--PTSD is certainly one, Agent Orange is 
another, but there are others--are ones that veterans feel like 
they get better care and maybe better focused care in a VA 
facility.
    Our community college back in Delaware, Delaware Technical 
Community College, has created a unit that is run by veterans 
for veterans, coming in many cases back from Afghanistan and 
back from Iraq. They are on the campus and are trying to 
acclimate to being a student, and some of the most go-to people 
there is a unit that is run by veterans. So that is in the back 
of my mind.
    One of the things that he said that caused me special 
concern was that it sounded like he was suggesting a breakdown 
in communications between specialties within VA hospitals and 
facilities. And if that is widespread, that is a matter of huge 
concern to me.
    It was, I do not know, maybe 15, 20 years ago that the VA 
began experimenting with electronic health records, and many 
people give the VA credit for being a pioneer, first on the 
beach in terms of deploying that kind of technology to provide 
for better health care for less money. And I would just ask of 
you, Mr. Missal--I will try to make you a guided missile here, 
as opposed to an unguided missile. But I would urge you to take 
a look at that. We know that there is a problem with 
interoperability between the electronic health records within 
the VA and within the Department of Defense. People come off 
active duty and have one kind of electronic health record. They 
go into the VA, and it is different, and the two do not 
communicate. There has been a huge effort to try to address 
that.
    But I would ask you to monitor that interoperability 
between the Departments, but also Senator Lankford's comments 
with respect to the breakdown of communications within a 
hospital across specialty units.
    Again, you all have done a great job. We are hopeful that 
we will get you reported out of here and get you confirmed by 
the Senate, and you can continue to do the good work you are 
doing, Ms. Lerner. And, Mr. Missal, you will be able to be a 
guided missile and go to work and do a great job there, as you 
have in other chapters of your life.
    Again, our thanks to your families.
    Mr. Missal. Thank you, Senator.
    Chairman Johnson. Thank you, Senator Carper.
    I will just give both of you the opportunity, if you have 
some closing comments, and we will let Ms. Lerner go first.
    Ms. Lerner. I do not have anything prepared, but I just 
wanted to thank you both, Senator Johnson and Senator Carper, 
both for the hearing today and also for the work that you have 
done with my agency over the last 4\1/2\ years. I really do 
view us as partners in trying to make government work better, 
more efficiently, and keep it safe. And we can be more 
effective when we are working with you, and so I have really 
appreciated that partnership and your support over these last 
4\1/2\ years. So thank you.
    Chairman Johnson. Thank you, Ms. Lerner. Mr. Missal.
    Mr. Missal. I would also like to thank you, Mr. Chairman, 
Senator Carper, and the Committee, for the courtesies extended 
today, the opportunity to discuss our views with you. I am 
committed to working tirelessly and independently on behalf of 
veterans and the American public. I am also committed to 
working cooperatively and collaboratively with this Committee 
as well, and I am available to answer any other questions you 
may have.
    Thank you.
    Chairman Johnson. OK.
    Senator Carper. Mr. Chairman.
    Chairman Johnson. Sure.
    Senator Carper. Could I ask, Ms. Lerner, if you were just 
to give Mr. Missal one word of advice, just terrific advice 
that really helped you in the success at your agency, give him 
just one really great piece of advice as he prepares, once 
confirmed, to assume his new responsibilities, what would that 
be?
    Ms. Lerner. Hire really great people. You are one person. I 
am one person. The reason that we have been able to be 
effective as an agency is because I have been able to recruit 
and retain really talented staff who do the day-to-day work of 
protecting whistleblowers, and I could not be prouder to serve 
with them, but they are the reason that we have been able to be 
successful. So my one piece of advice is to surround yourself 
with people who are smarter than you are and, who will really 
make a difference.
    Senator Carper. It is funny you should say that, because 
down in Guatemala--the Chairman and I have been down to Central 
America, down on the border quite a bit with Mexico. But they 
are going to be swearing in a new President in Guatemala on 
Thursday of this week, a former comedian, Jimmy Morales, who 
actually had his own TV show, and I met with him when I was 
down there a couple of months ago, and he is not that funny. 
[Laughter.]
    Chairman Johnson. I am sure he is, but he is also a very 
serious individual.
    Senator Carper. But he has a serious side. You know what? 
He said, ``Give me some advice.'' And the advice I gave him, I 
said, ``You will have one chance to put together a world-class 
team around you, and the people who elected you''--two-thirds 
of them voted for him. ``Look and see who are you going to 
surround yourself with, the quality of those people, the 
integrity of those people, their commitment to doing a good 
job.'' That is great advice, and I take that one to heart, and 
my guess is you already have.
    Thank you.
    Chairman Johnson. That was a good question. That is a right 
answer. Let us face it, for any organization, a bunch of 
people. And so good answer.
    I want to thank again the nominees. I want to thank their 
families. Families, look very carefully at these two 
individuals because you will see them probably less. I think 
Ms. Lerner's family already realizes that. Mr. Missal's family 
will soon find that out, because this is an enormous task.
    I appreciate a lot of the answers to our questions talking 
about working with this Committee, cooperating, being a 
partner. When you need legislation out of this Committee, let 
us know. You are the ones that understand that. And I hope if 
you walk away from this hearing with basically one thought or 
one piece of understanding, that it is how even in divided 
government, even when, a lot of times things are pretty 
partisan, I hope that you understand as well as the American 
people watching this understand, this is one area of completely 
unanimous agreement that we must honor the promises to the 
finest among us to provide them with quality care. You are the 
tip of the spear to provide the transparency and the 
accountability to actually accomplish that shared goal, that 
shared purpose.
    So, again, I just want to thank you, your families, all my 
colleagues for understanding how important these positions are 
and your willingness to serve.
    With that, for the record, I just want to state that both 
nominees have filed responses to biographical and financial 
questionnaires, answered prehearing questions submitted by the 
Committee, and had their financial statements reviewed by the 
Office of Government Ethics. Without objection, this 
information will be made part of the hearing record,\1\ with 
the exception of the financial data, which is on file and 
available for public inspection in the Committee offices.
---------------------------------------------------------------------------
    \1\ The information of Mr. Missal appears in the Appendix on page 
37 and the information for Ms. Lerner appears in the Appendix on page 
84.
---------------------------------------------------------------------------
    The hearing record will remain open until noon tomorrow, 
January 13, 2016, for the submission of statements and 
questions for the record. And I will give you my commitment we 
will move very expeditiously on these two nominations so you 
can continue your important work or start your important work.
    With that, this hearing is adjourned.
    [Whereupon, at 11:33 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                           [all]
</pre></body></html>
